                                                     OFFICE OF INVESTIGATIONS

                                            CLOSEOUT MEMORANDUM




                OIG received an allegation of plagiarism in an NSF proposal' submitted by the ~ u b j e c t . ~
         We examined the proposal and identified text allegedly plagiarized from the Subject's
         sponsoring s~ientist.~Both the Subject and the sponsoring scientist stated the sponsoring scientist
         provided the material to the Subject for inclusion in the Subject's NSF proposal. Both also
         expressed regret over not having ensured the sponsoring scientist's article was included in the
         Works Cited section of the proposal. Additionally, the sponsoring scientist said he and the
         Subject are currently co-authoring an article containing this identical text.

                 Given the Subject and his sponsor's responses and given this is the Subject's first NSF
         proposal, we will send the Subject a warning letter reminding him to be more vigilant in citation
         practices in the future. Accordingly, this case is closed.




NSF OIG Form 2 (1 1/02)
